No. 20-54
IN THE

Supreme Court of the United
States
BRIDGE AINA LE ‘A, LLC,
v.

Petitioner

STATE OF HAWAII LAND USE COMMISSION,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF OF FOUR TAKINGS SCHOLARS
IN SUPPORT OF PETITIONER
DWIGHT H. MERRIAM*
*Counsel of Record
Attorney at Law
80 Latimer Lane
Weatogue, CT 06089
dwightmerriam@gmail.com
Tel: (860) 463-7233

CAROL N. BROWN
Professor of Law
University of Richmond
School of Law
203 Richmond Way
Richmond, VA 23173
cbrown5@richmond.edu
Tel: (804) 484-1626
Fax: (310) 312-4224

JAMES W. ELY, JR.
Milton R. Underwood
Professor of Law,
Emeritus, and Professor
of History, Emeritus
Vanderbilt University
131 21st Avenue
Nashville, TN 37203-1181
james.ely@vanderbilt.edu
Tel: (615) 322-2615
Fax: (615) 322-6631

DAVID L. CALLIES
Benjamin A. Kudo
Professor of Law
University of Hawai’i
at Manoa
William S. Richardson
School of Law
2525 Dole Street
Honolulu, HI 96822
dcallies@hawaii.edu
Tel: (808) 956-6550
Fax: (808) 956-5569

i
TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE ........................ 2
SUMMARY OF ARGUMENT................................. 3
ARGUMENT .......................................................... 4
I

THE CHAOS CREATED BY THE
UNCLEAR RULES FOR TAKINGS
ADVERSELY AFFECTS THE
INTERESTS OF ALL THE
STAKEHOLDERS ........................................ 4

II

AT THE ROOT OF THE PROBLEM
IS THE CONFUSION OVER WHAT
IS AN “ECONOMICALLY
BENFICIAL USE”........................................ 6

III

LUCAS PROVIDES A CLEAR
STATEMENT OF THE CATEGORIAL
OR TOTAL REGULATORY TAKING,
AND THE COURT NEEDS TO
REITERATE IT .......................................... 12

IV

COURTS SHOULD RARELY
OVERRIDE THE JUDGMENT OF
THE FACTFINDING JURY IN
TAKINGS CASES ...................................... 12

CONCLUSION ...................................................... 15

1
CASES
Arkansas Game and Fish Commission v. United
States, 568 U.S. 23 (2012) ………………………..8
Baltimore & Carolina Line, Inc. v. Redman,
295 U.S. 654 (1935)..…………………….……….13

Knick v. Township of Scott,
138 S.Ct. 1262,

U.S.

(2019).......………….. 6

Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528 (2005)…………..…………………... 8
Lost Tree Village Corp. v. United States,
787 F.3d 1111 (Fed. Cir. 2015) ........................... 7
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992).................................. passim
Olson v. United States,
292 U.S. 246, 54 S.Ct. 704 (1934)….…………….7
OTHER AUTHORITIES
2020-2021 Uniform Standards of Professional
Practice (USPAP) Eff. Jan. 1, 2020 through Dec.
31, 2021.
“Public school students view new Kilauea lava,”
Hawaii State Department of Education (Dec. 8,
2014).
Brown, Carol N. & Merriam, Dwight H., On the
Twenty-Fifth Anniversary of Lucas: Making or
Breaking the Takings Claim, 102 Iowa L. Rev.
1847 (2017).

2
Callies, David L., Regulatory Takings
after Knick, ABA (2020).
Merriam, Dwight, Rose Mary Knick and the Story
of Chicken Little, 47 Fordham Urb. L.J. 639
(2020).
C. Nichols, Eminent Domain (rev. 3d. ed. 2020
ongoing).
Rathkopf’s The Law of Zoning and Planning 4th
(2020 ongoing),
STATUTES
42 U.S.C. §1983 ........................................................ 5
42 U.S.C. §1988 ........................................................ 5
CONSTITUTIONS
U.S. CONST. amend V ..................................... 7. 8, 12
INTEREST OF AMICUS CURIAE1
Professors Carol N. Brown, David L. Callies, and
James W. Ely, Jr. have taught land use law for
decades, collectively over 100 years, and each has
authored numerous scholarly articles and books on
1

Pursuant to the Court’s Rule 37.3, this amicus brief is filed
with the consent of the parties. Pursuant to Rule 37.6, Amicus
Curiae affirms that no counsel for any party authored this
brief, and no person other than Amicus Curiae, its members,
or its counsel made a monetary contribution to the preparation
or submission of this brief. Counsel for Amicus Curiae gave
each party ten days’ timely notice of the intent to file this brief.

3
the subject. Dwight Merriam is a practicing attorney
and former President of the American Institute of
Certified Planners. He has taught land use as an
adjunct professor for 40 years and is the co-editor of
the land use law treatise, Rathkopf’s The Law of
Zoning and Planning 4th.
Our academic and
practical experience cuts across land use law,
property rights, and takings. We are recognized for
our objective advocacy for the development of land
use law to serve the interests of all the stakeholders,
including government, property owners, developers,
interested citizens, and advocacy groups. We join in
this brief in the interest of urging the Court to grant
certiorari because this case provides an ideal
opportunity to clarify and advance the law.
SUMMARY OF ARGUMENT
1. The opinion of the Ninth Circuit Court of
Appeals illustrates the problems inherent in the
present tests for takings. The confusion adversely
affects all of the stakeholders and results in
unnecessary litigation. This case provides a good
opportunity to address the problems.
2. The chaos is caused largely by the failure to
understand what “economically beneficial use”
means in the real world of real property. The market
value of property is not the basis on which
regulatory takings should be determined; instead, it
is the use left to the owner.
3. The categorical takings test in Lucas is
correct, but has been misunderstood by litigants and
the courts. The Court should reiterate the test,
using the appropriate definition of “economically

4
beneficial use” to make clear when there is a Lucas
categorical taking.
4. The local jury determined as a matter of fact
that the Hawaii Land Use Commission totally
eliminated any economic or productive use of the
land in question and that jury’s judgment based on
the facts presented and the proper instructions
issued ought to be respected, as such jury decisions
should be in takings cases generally.
ARGUMENT
I
THE CHAOS CREATED BY THE UNCLEAR
RULES FOR TAKINGS ADVERSELY
AFFECTS THE INTERESTS OF ALL THE
STAKEHOLDERS.
While we do not take sides on who ought to win
in this case, we urge the Court to grant certiorari in
the interest of all the stakeholders. There is
confusion about what might be a taking because the
Penn Central Transp. Co. v. City of New York, 438
U.S. 104 (1978), and Lucas v. South Carolina
Coastal Council, 505 U.S. 1003 (1992) rules are
unworkable and unclear as presently interpreted
and applied. With clearer standards for takings,
better decisions would be made, litigation reduced,
and cases more quickly settled.
All the stakeholders are harmed by the
current uncertainty. Government, in our experience,
sometimes regulates too timidly out of fear of a
successful 42 U.S.C. § 1983 taking claim and
attorney’s fees under 42 U.S.C. § 1988.
But
government also, as we have seen all too often, goes

5
beyond reasonable regulatory bounds and takes
property by over-regulation when it is unable to find
its way out of the mare’s nest of confused and
confusing precedent.
Property owners are similarly disadvantaged,
not knowing how much use they must lose before
they might have a valid claim for just compensation.
Moreover, advocates for better planning and
regulation for a sustainable future have little idea of
what is possible, what will be constitutionally
permissible, and what regulation risks taking
private property for public use.
The problems with uncertain regulatory
takings tests affect all no matter where they are on
that long continuum from unbridled protection of all
property rights to the principle that those rights
must give way without compensation for the
common benefit.
This Court helped all of the stakeholders with
its decision in Knick v. Township of Scott,
U.S.
(2019). After the first couple of days of pontification
in the press from both ends of the political spectrum,
reality set in. Knick was not about a liberal or
conservative agenda. It was about correcting a test
that had proved unworkable.2 This case provides a
similar opportunity for the Court to revisit the long
history of regulatory takings tests and to give
guidance so desperately needed.
Callies, David L., Regulatory Takings after Knick, ABA
(2020); Merriam, Dwight, Rose Mary Knick and the Story of
Chicken Little, 47 Fordham Urb. L.J. 639 (2020).
2

6

II
AT THE ROOT OF THE PROBLEM IS THE
CONFUSION OVER WHAT IS AN
“ECONOMICALLY BENFICIAL USE”.

A land use regulation totally “takes” property
when it leaves the owner without any “economically
beneficial use” of the land. Lucas v. South Carolina
Coastal Council, 505 U.S. 1003, 1027 (1992). In
Lucas, a beach management statute prohibited the
landowner from building a single-family home on
each of two lots. This Court there established the
rule that when a regulation deprives a landowner of
all economically beneficial use, the result is the
functional equivalent of a physical taking under
eminent domain, requiring just compensation under
the Constitution’s Fifth Amendment.
Most land, even under the most burdensome
regulation, will likely still have value. It may even
retain some limited, “salvage” uses like camping or
trail walking. It certainly will have speculative
value. “The law is dynamic, and this dynamism,
with the potential of favorable future regulatory
change for a property owner, creates speculative
value at some price point.”3
Brown Carol N. & Merriam, Dwight H., On the TwentyFifth Anniversary of Lucas: Making or Breaking the Takings
Claim, 102 Iowa L. Rev. 1847 at note 55 (2017).
3

7
This Court determined in Olson v. United
States, 292 U.S. 246, 257, 54 S.Ct. 704 (1934) that
speculative elements affecting value should be not
be considered in regulatory takings cases. The
United States Court of Appeals, Federal Circuit, in
Lost Tree Vill. Corp v. United States, 787 F.3d 1111,
1118 (Fed. Cir. 2015), relied upon this Court’s Olson
decision when it held that the takings inquiry does
not consider speculative uses of land. The holding in
Olson is nothing new because the Fifth Amendment
does not employ the phrase “economically beneficial
use.” That phrase only has meaning in how this
Court has used it.
In our view, property has no economically
beneficial use, as this Court described it in Lucas,
when the owner finds it is simply useless; not
valueless in the marketplace, but devoid of any
reasonable use, of no practical value to the owner in
terms of its use.
Despite some later attempts both in state and
federal courts to convert this economically beneficial
use test to one in which the landowner must show
the relevant parcel is deprived of all value, this
Court has several times reiterated that the test for
categorical or total regulatory takings remains as set
out in Lucas. Thus, in summarizing the Court’s
takings jurisprudence, a unanimous Court restated
the “all economically beneficial use” test in Lingle v.
Chevron USA, 544 U.S. 528 (2005). Again in
Arkansas Game and Fish Commission v. United
States, 568 U.S. 23 (2012) the Court repeated that a
total regulatory taking occurs when a regulation
permanently requires landowners to sacrifice all
economically beneficial use of their land.

8
So what’s the problem? How is it that in the
case for which we are urging the Court to grant a
petition for a Writ of Certiorari, a federal appeals
court has refused to apply Lucas when a state Land
Use Commission classifies as agricultural a parcel
which is, on the record, totally unsuitable for
agricultural use, on the ground that it might have
value for growing rocks? Because value – which land
always has – is different from the standard this
Court set out in Lucas. Value is not the same as
economically beneficial use.
Conventional appraisal techniques value
property based on what the market is – what would
a property sell for with a willing seller and a willing
buyer and some reasonable time. Appraisers also
value commercial properties like stores and
apartment buildings using the income approach,
considering return on investment. And finally, some
valuation is based on replacement cost, what it
would cost to replicate improvements.
The problem litigants and the courts have had
with figuring out what is an “economically beneficial
use” is that they fail to understand that just about
anything that can be sold has some monetary value,
even though it may have no use.
The leading treatises on eminent domain, C.
Nichols, Eminent Domain (rev. 3d. ed. 2020
ongoing), and land use, Rathkopf’s The Law of
Zoning and Planning 4th (2020 ongoing), both devote
entire chapters to how the probability of rezoning
ought to be considered in valuing property in
eminent domain cases. The market monetization of
the speculative use makes sense in physical takings
where the government takes land by eminent

9
domain. With eminent domain, the owner is divested
of the property and to receive just compensation
ought to receive the monetized speculative value if
they can prove the future use is reasonably probable
because the owner either paid that or has
voluntarily held the property thereby investing in it.
It is far different with regulatory takings
where the property owner is left owning property
that cannot be put to any practical use, but still
might be found to have some cash value in the
marketplace. With inverse condemnation, to
consider speculative market value as part of the
economically beneficial use often means rejecting
the taking claim thereby denying the owner fair
compensation, while leaving the owner with no
present use.
That construct that we can find “economically
beneficial use” by determining if the property has a
market price is based on speculation – someone
believing they have the ability to come up with a
more lucrative plan for development or the political
power to get a needed zone change. It is the
gambler’s world of real estate, with some big
winners and some big losers.
This Court in Lucas, at least as we
understand the decision, did not consider
speculative value to be any part of an “economically
beneficial
use.” It
is,
unfortunately,
the
confusion among some over what the Court meant
that has caused the difficulty in applying
the Lucas categorical taking test.
Even if a property has speculative monetary
value, its beneficial use, here and now, may be

10
nonexistent. The facts of this case suggest that this
may be one of those instances, where there is no
present practical use for this landscape of lava rocks
under its state agricultural classification, though it
might be economically developed if it were zoned for
an urban use… when and if it was again reclassified.
It is that long-term, “over-the-horizon”
speculation that is reflected in appraisals. That
high-risk, potentially high-return, basis of valuation
utterly fails to reflect current use as a practical
matter, which ought to be the basis for determining
if there is a compensable taking. And it is that
misguided use of speculative valuation that has
rendered the first part of the three-part Penn
Central test unworkable.
What is needed is a clear pronouncement by
the Court that use means actual, current,
reasonable use, not the fact that an appraisal can
put a dollar value on it.
The fact that an appraiser, bound by the
Uniform Standards of Professional Appraisal
Practice (USPAP),4 may be required to factor in the
speculative value is not helpful most of the time.
This is, as we said, different than eminent domain.
If the test in an indirect taking is not one of actual
use, property owners may be impressed into
becoming unwilling stewards of properties held for
future use at their own expense, the government

2020-2021 Uniform Standards of Professional Practice
(USPAP) Eff. Jan. 1, 2020 through Dec. 31, 2021 available at
https://uspap.org/.
4

11
shifting the burden of meeting the public’s interest
onto the shoulders of the private property owner.
The apparent frustration of the government
in this case with the failure of several developers to
move forward, and the government’s desire to force
a change to some new developer by reclassifying the
land from urban back to agriculture may be the sort
of abuse that should be compensated if it is
determined that there is no actual current use. As it
stands now, the Ninth Circuit’s application of the
first part of the Penn Central test appears to miss
the mark because it is grounded in the USPAPdriven formulation that always places market
speculation over actual use.
Did the jury, in its wisdom, see through the
shibboleth of market value and correctly discern
that there was no use and that the property owner
should be compensated for becoming what appears
to be an unwilling, unpaid custodian? We do not
know. We were not there for the trial, have not read
the trial transcript, and were not privy to the
deliberations; but then neither was the Ninth
Circuit.
To determine if there is a compensable Fifth
Amendment taking, we must look only to the here
and now, to what is an appropriate and reasonable
use as currently provided for by government plans
and regulations.

12
III
LUCAS PROVIDES A CLEAR STATEMENT
OF THE CATEGORIAL OR TOTAL
REGULATORY TAKING, AND THE COURT
NEEDS TO REITERATE IT
The Court’s test in Lucas is a good one, and it
works - if it is applied as to use, not speculative
value.
The
reason
for
relatively
few
successful Lucas claims is that courts have
misapplied the test and permitted vague and
speculative claims about possible future value to
obscure the fact that an owner has been denied all
economically viable of his or her land. This amounts
to an end run around Lucas.
IV
COURTS SHOULD RARELY OVERRIDE THE
JUDGMENT OF THE FACTFINDING JURY
IN TAKINGS CASES.

The precedent for a judge’s power to take the
decision away from the jury comes from Baltimore &
Carolina Line, Inc. v. Redman, 295 U.S. 654, 659
(1935),5 where the Court noted that it had “distinctly
recognized that a federal court may take a verdict
subject to the opinion of the court on a question of
law” and upheld a trial court’s decision to take the
case away from the jury because the “evidence was
Citing Brent v. Chapman, 5 Cranch, 358, 3 L.Ed. 125;
Chinoweth v. Haskell, 3 Pet. 92, 94, 96, 98, 7 L.Ed. 614;
Suydam v. Williamson, 20 How. 427, 434, 15 L.Ed. 978.
5

13
insufficient to support the verdict for the plaintiff.”
This Court in that case characterized a question of
fact as a question of law within the province of the
court.
The notion that judges may be more “rational”
than juries is at the foundation of our willingness to
allow them to nullify the work of the juries. While
who is more rational might be an apt consideration
in some highly-technical matters, there is nothing
highly-technical about regulatory taking cases.
To the contrary, what distinguishes these
taking cases from most others is that they are
fundamentally fact-specific and grounded, literally,
in the local experience. They involve land, a form of
property so unique that specific performance is
available as a remedy to enforce real property
contracts.
In this case, who would know more than a
jury of local people about lava fields, one type of lava
versus another, and what the local experience has
been as to the practical use of those areas? School
children in Hawai’i know the difference between
pahoehoe and a’a. They go on field trips to volcanos.6
It is around them all the time.
People who live and work in Hawai’i know
what the landscape can support, and what an
economically beneficial use is. While they, as jurors
in regulatory taking cases, should consider the
appraised value, we need them to determine what
an economically beneficial use is from their
“Public school students view new Kilauea lava,” Hawaii
State Department of Education (Dec. 8, 2014), available at
http://www.hawaiipublicschools.org/ConnectWithUs/MediaRo
om/PressReleases/Pages/lava-field-trip.aspx.
6

14
particular perspective. The district court judge
recognized that in this case, but the Ninth Circuit,
yet one more step removed from those lava flows,
rejected it.
We believe that the rule of law and the ends
of justice require that taking cases, direct and
indirect, should be tried by juries because they
involve the taking of private property. Private
property, second only to liberty interests, is at the
core of our democracy and constitutional
government.
The standard for wresting the decision away
from the jury in a taking case should be a strict one.
The determination by a jury that property has been
taken by overregulation is a profoundly factual one
based on the judgment of local citizens who know
best whether the land has any reasonable,
economically beneficial economic use.
That
judgment may sometimes rationally disregard
under the rule of law, at least to some degree, an
appraisal report that has monetized speculation.
To alchemize that factual determination into
one of a pure question of law is unwarranted and
unwise in taking cases and should be reserved for
those instances where letting a jury verdict stand
would be manifestly unjust and akin to “shocks the
conscience.” Other than that, jury verdicts in taking
cases should stand, even when they depart from the
rigid construct of diminution in value, because local
jurors know more than anyone else about use and
community values as to who should bear the burden.

15
CONCLUSION
The Court should grant certiorari.
Respectfully submitted,
CAROL N. BROWN
Professor of Law
University Of Richmond
School Of Law
203 Richmond Way.
Richmond, VA 23173
cbrown5@richmond.edu
Tel: (804) 484-1626
Fax: (310) 312-4224

JAMES W. ELY, JR.
Milton R. Underwood
Professor of Law,
Emeritus, and Professor
of History, Emeritus
Vanderbilt University
131 21st Avenue
Nashville, TN 37203-1181
james.ely@vanderbilt.edu
Tel: (615) 322-2615
Fax: (615) 322-6631

DAVID L. CALLIES
Benjamin A. Kudo
Professor of Law
University of Hawai’i at
Manoa
William S. Richardson
School of Law
2525 Dole Street
Honolulu, HI 96822
dcallies@hawaii.edu
Tel: (808) 956-6550
Fax: (808) 956-5569

DWIGHT H. MERRIAM
Attorney at Law
80 Latimer Lane
Weatogue, CT 06089
dwightmerriam@gmail.com
Tel: (860) 463-7233

